    AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

OFFICE FOR VICTIMS OF CRIME GRANTS AWARDED TO 

  THE PENNSYLVANIA COMMISSION ON CRIME AND 

                  DELINQUENCY 

             HARRISBURG, PENNSYLVANIA




           U.S. Department of Justice 

         Office of the Inspector General 

                  Audit Division 



           Audit Report GR-70-11-004 

                   March 2011

          AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
     OFFICE FOR VICTIMS OF CRIME GRANTS AWARDED TO THE
    PENNSYLVANIA COMMISSION ON CRIME AND DELINQUENCY
                    HARRISBURG, PENNSYLVANIA

                         EXECUTIVE SUMMARY

      The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of two Office for Victims of Crime grants
awarded to the Pennsylvania Commission on Crime and Delinquency (PCCD),
located in Harrisburg, Pennsylvania. These grant awards were funded by the
American Recovery and Reinvestment Act of 2009 (Recovery Act). The
grants we audited included the Victims of Crime Act Victim Compensation
Formula Grant Program (Victim Compensation grant), grant number
2009-SF-B9-0090, which totaled $1,536,233, and the Victims of Crime Act
Victim Assistance Formula Grant Program (Victim Assistance grant), grant
number 2009-SG-B9-0117, which totaled $1,323,000. The Victim
Compensation grant provided funds to enhance victim compensation
payments to eligible crime victims. The Victim Assistance grant provided
funds to enhance crime victim services in Pennsylvania.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also evaluated PCCD’s program performance in
meeting objectives and overall accomplishments for each grant.

      We determined that PCCD did not fully comply with the grant
requirements we tested. We reviewed PCCD’s compliance with seven
essential grant conditions and found weaknesses in three of the areas we
tested: grant expenditures, performance reports, and the monitoring of
subgrantees. For the Victim Compensation grant, we found inconsistencies
between PCCD’s accounting records and performance data. For the Victim
Assistance grant, we found that PCCD was unable to support all of the
expenditures drawn down, totaling $530,689 of the original grant award of
$1,323,000, and lacked sufficient subgrantee monitoring. As a result, we
questioned $530,689 in expenditures.

      In addition to the questioned costs, we found management
improvement findings related to performance reporting, drawdowns, and the
monitoring of subgrantees. We determined that PCCD did not require
subgrantees to submit supporting documentation for performance or fiscal
reports, performance reports were inaccurately submitted, drawdowns were
not based on actual costs, and subgrantees were not sufficiently monitored.


                                   -i-
     These items are discussed in detail in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology appear in Appendix I.

      We discussed the results of our audit with PCCD officials and have
included their comments in the report, as applicable. Additionally, we
requested a response to our draft report from PCCD and OJP, and their
responses are appended to this report as Appendix III and IV, respectively.
Our analysis of both responses, as well as a summary of the actions
necessary to close the recommendations can be found in Appendix V of this
report.




                                    - ii -
                                   TABLE OF CONTENTS




INTRODUCTION ....................................................................... 1

Office for Victims of Crime ............................................................2     

American Recovery and Reinvestment Act .....................................2                 

Victim Compensation Formula Grant Program .................................2                  

Victim Assistance Formula Grant Program.......................................3               

Pennsylvania Commission on Crime and Delinquency .......................4                     

Our Audit Approach. ....................................................................5     

FINDINGS AND RECOMMENDATIONS........................................ 7 

Internal Control Environment .......................................................7 

Expenditures .............................................................................8 

Monitoring of Subgrantees .......................................................... 11 

Drawdowns ............................................................................. .13 

Reporting ............................................................................... .14 

Program Performance ................................................................ 18 

Compliance with Other Grant Requirements .................................. 22 

Conclusions .............................................................................. 23 

Recommendations..................................................................... 23 

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY........ 25 

APPENDIX II - SCHEDULE OF DOLLAR RELATED FINDINGS..... 27 

APPENDIX III – PENNSYLVANIA COMMISSION ON CRIME
    AND DELINQUENCY RESPONSE TO THE DRAFT AUDIT
    REPORT ......................................................................... 28 

APPENDIX IV – OFFICE ON JUSTICE PROGRAMS RESPONSE 

    TO THE DRAFT AUDIT REPORT ....................................... 32 

APPENDIX V – OFFICE OF THE INSPECTOR GENERAL
    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
    TO CLOSE THE REPORT................................................... 36 

                               INTRODUCTION

      The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office for Victims of Crime (OVC)
2009 Victims of Crime Act Victim Compensation Formula Grant Program
(Victim Compensation grant), grant number 2009-SF-B9-0090, which
totaled $1,536,233, and the 2009 Victims of Crime Act Victim Assistance
Formula Grant Program (Victim Assistance grant), grant number
2009-SG-B9-0117, which totaled $1,323,000. Both grants were funded
through the American Recovery and Reinvestment Act of 2009 (Recovery
Act), and were awarded to the Pennsylvania Commission on Crime and
Delinquency (PCCD).

      The Victim Compensation grant provided funds from the Recovery Act
to enhance victim compensation payments to eligible crime victims by
providing financial assistance to federal and state victims of crime. The
Victim Assistance grant provided funds from the Recovery Act to enhance
crime victim services by funding competitive grants awarded by
Pennsylvania to local community-based organizations that provide direct
services to crime victims.

       The purpose of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also evaluated PCCD’s overall program
performance and accomplishments in meeting grant objectives for the
funded programs. As shown in the table below, PCCD received two awards
totaling $2,859,233.

              Office for Victims of Crime Grant to
      Pennsylvania Commission on Crime and Delinquency


   Grant Award             Award        Award
                                                     Award Amount
     Number              Start Date    End Date
 2009-SF-B9-0090          04/24/09      09/30/12        $   1,536,233
 2009-SG-B9-0117          04/24/09      09/30/12            1,323,000
     Total                                              $   2,859,233
     Source: OVC grant files




                                      -1-
Office for Victims of Crime

      The Office for Victims of Crime (OVC), within the U.S. Department of
Justice, provides primary management and oversight of the grants we
audited. OVC works to enhance the nation’s capacity to assist crime victims
and to provide leadership in changing attitudes, policies, and practices to
promote justice and healing for all victims of crime.

      The Crime Victims Fund (the Fund) was established by the 1984
Victims of Crime Act (VOCA). The Fund supports programs that significantly
impact the lives of more than 4.2 million crime victims each year. Since its
inception, the Fund has been supported by fines, penalty assessments, and
bond forfeitures collected from convicted federal offenders, not tax dollars.
In 2001, legislation passed which allows the Fund to also receive gifts,
donations, and bequests from private entities. OVC distributes money
deposited into the Fund directly to states to support state compensation and
assistance services for victims and survivors of domestic violence, sexual
assault, child abuse, drunk driving, homicide, and other crimes.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      Specifically, under this solicitation, OVC was to award each eligible
state compensation program a Recovery Act - VOCA victim compensation
formula grant to support the provision of crucial financial assistance to
victims throughout the nation, and a Recovery Act - VOCA victim assistance
formula grant to support the provision of services to victims of crime
throughout nation.

Victim Compensation Formula Grant Program

     All states have established compensation programs for crime victims.
These programs reimburse victims for crime-related expenses such as


                                    -2-
medical costs, mental health counseling, funeral and burial costs, and lost
wages or loss of support. Although each state compensation program is
administered independently, most programs have similar eligibility
requirements and offer comparable benefits. Compensation is paid only
when other financial resources, such as private insurance and offender
restitution, do not cover the loss. Some expenses are not covered by most
compensation programs, including theft, damage, and property loss. To
receive compensation, victims must comply with state statutes and rules,
which generally require victims to cooperate with reasonable requests of law
enforcement, and submit a timely application to the compensation program.
VOCA funds supplement state efforts to compensate crime victims.
Currently, compensation programs are reimbursed for 60 percent of all
eligible state compensation payments from the previous year. For fiscal
years 1986 through 2003, OVC distributed $1,203,684,429 in VOCA
compensation grant funds.

      According to a PCCD grant official, the goal of the Victim
Compensation grant was to provide financial assistance to victims of crime.
PCCD was awarded grant funds in April 2009 but did not start spending
grant funds until July 1, 2009. PCCD had spent $1,461,318, or 95 percent
of grant funds, to serve victims as of June 30, 2010. In addition, PCCD
planned to spend the remainder of the grant funds as part of a public
awareness campaign to increase visibility about the Victim Compensation
Program for crime victims in hospital emergency waiting rooms.

Victim Assistance Formula Grant Program

       Each year, states and territories receive Victim Assistance grant funds
to support community-based organizations that serve crime victims.
Approximately 5,600 grants are made to domestic violence shelters, rape
crisis centers, child abuse programs, and victim service units in law
enforcement agencies, prosecutors' offices, hospitals, and social service
agencies. These programs provide services that include crisis intervention,
counseling, emergency shelter, criminal justice advocacy, and emergency
transportation.

      States and territories are required to give priority to programs serving
victims of domestic violence, sexual assault, and child abuse. Additional
funds must be set aside for underserved victims, such as survivors of
homicide victims and victims of drunk drivers. For fiscal years 1986 through
2003, states were provided $3,062,972,335 in VOCA Victim Assistance
grants from OVC.



                                     -3-
      According to a PCCD grant official, the goal of this Victim Assistance
grant was to provide direct services to crime victims in support of the
Recovery Act objectives; to preserve and create jobs and promote economic
recovery. PCCD implemented this grant through the use of four subgrantees
that were to provide victim services.

                               Victims Assistance Grant 

                              Subgrantee Award Amount 


                         Subgrantee                                 Award Amount
                          1
Pinnacle Health System                                                  $   149,410
Women Against Abuse, Inc.                                                   255,788
Women Organized Against Rape                                                221,518
Anti-Violence Partnership of Philadelphia                                   678,680
                                                                                   2
Remainder of Award – to be allocated among subgrantees                      17,604
    Total Victims Assistance Grant Award Amount                         $1,323,000

      The subgrantees served four categories of victims: child abuse,
domestic violence, sexual assault, and the underserved. From the beginning
of the grant award through June 30, 2010, PCCD paid the four subgrantees
a total of $530,689, or 40 percent of grant funds.

Pennsylvania Commission on Crime and Delinquency

      PCCD was established in 1978 to improve the criminal justice system
in Pennsylvania. PCCD works with the Pennsylvania Governor’s Office to
help coordinate the work of state and local criminal justice agencies to
increase communication, effectiveness, and efficiency. PCCD allocates
federal and state funds to victims, victim service providers, criminal and
juvenile justice agencies, and works to help communities improve the
administration of justice in a variety of ways.

       PCCD’s mission is to enhance the quality of criminal and juvenile
justice systems, facilitate the delivery of services to victims of crime, and
assist communities to develop and implement strategies to reduce crime and
victimization. PCCD’s vision is to be a state and national leader by providing


       1
         Pinnacle Health System had three contracts for three separate counties, which are
Dauphin, Lebanon, and Perry counties.
       2
         According to a PCCD official, the remaining $17,604 will eventually be used to
extend and augment one of the subgrants.



                                            -4-
innovative services and programs that promote justice for all citizens and
communities in Pennsylvania.

Our Audit Approach

       We tested compliance with what we considered to be the most
important conditions of the grants. Unless otherwise stated in our report,
we applied the Department of Justice Office of Justice Programs (OJP)
Financial Guide as our primary criteria during our audit. The OJP Financial
Guide serves as a reference manual assisting award recipients in their
fiduciary responsibility to safeguard grant funds and ensure that funds are
used appropriately and within the terms and conditions of awards. We
tested PCCD’s:

    	 Internal control environment to determine whether the financial
       accounting system and related internal controls were adequate to
       safeguard grant funds and ensure compliance with the terms and
       conditions of the grants.

    	 Grant expenditures to determine whether the costs charged to the
       grants were allowable and supported.

    	 Monitoring of subgrantees to determine whether PCCD had taken
       appropriate steps to ensure that subgrantees complied with grant
       requirements.

    	 Grant drawdowns to determine whether requests for
       reimbursement, or advances, were adequately supported, and if
       PCCD managed grant receipts in accordance with federal
       requirements.

    	 Reporting to determine whether the required Federal Financial
       Reports, performance reports, and Recovery Act reports were filed
       on time and accurately reflected grant activity.

    	 Program performance and accomplishments to determine
       whether PCCD achieved grant objectives, and to assess performance
       and grant accomplishments.

    	 Compliance with other grant requirements to determine
       whether PCCD complied with the terms and conditions specified in
       the individual grant award documents.



                                    -5-
     When applicable, we also test for compliance in the areas of matching
funds, accountable property, indirect costs, program income, and monitoring
contractors. For this grant, we determined that PCCD charged no indirect
costs, did not obtain accountable property, matching funds were not
required, the grant-funded program generated no program income, and
there were no contractors. In addition, formula grant programs do not
require financial clearance from OJP; therefore, we did not test budget
management and control.




                                   -6-
                  FINDINGS AND RECOMMENDATIONS

       COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

       We determined that PCCD generally complied with the
       essential grant requirements in the areas we tested for both
       the Victim Compensation grant and the Victim Assistance
       grant. However, for the Victim Assistance grant we found:
       (1) expenditures made with grant funds that were 

       unsupported because of inadequate documentation; 

       (2) weaknesses in the drawdown process; and (3) a lack of
       subgrantee monitoring. For both grants, we found
       weaknesses in grant reporting, including inaccurate and
       unsupported performance reports. As a result of these
       deficiencies, we questioned $530,689 in unsupported
       expenditures for the Victim Assistance grant. These
       conditions, including the underlying causes and potential
       effects on the OVC programs, are further discussed in the
       body of this report.

Internal Control Environment

       We began this audit by developing an understanding of PCCD’s
financial management system, policies and procedures, and the 2008 Single
Audit Report to assess PCCD’s risk of non-compliance with laws, regulations,
guidelines, and the terms and conditions of the grants. We also interviewed
officials from the organization to further assess risk to determine if controls
were adequate to separately account for and maintain grant funds for each
award.

      According to the OJP Financial Guide, grant recipients are responsible
for establishing and maintaining an adequate system of accounting and
internal controls. An acceptable internal control system provides cost and
property controls to ensure the optimal use of funds.

       While our audit did not assess PCCD’s overall system of internal
controls, we did review the internal controls of PCCD’s financial management
system specific to the management of funds for each grant award during the
grant periods under review. Overall, we identified internal control
deficiencies that are discussed in greater detail below, and these deficiencies
taken as a whole warrant the attention of PCCD management for necessary
corrective action.



                                     -7-
      According to a PCCD official, federal funding sources were assigned a
unique fund number and every individual grant award was assigned a unique
internal order number. We verified that PCCD had a separate funding source
and internal order numbers for both grants.

      For the Victim Compensation grant, funds were primarily used to pay
claims for losses, such as payments for funerals, loss of support, loss of
earnings, counseling, relocation, hospitals and other medical providers, and
claimants. We reviewed the claims process used by PCCD and found that
claims went through several stages, including meeting eligibility
requirements, verification, and the award process. Claims were also
required to be signed off by several individuals in order to be approved and
funded. After our review of the claims process, accounting information, and
our interviews with grant officials, we determined that the internal controls
being used by PCCD were working and adequate to safeguard grant funds
received, and ensured the compliance with the terms and conditions of the
Victim Compensation grant.

       The Victim Assistance grant was used to reimburse subgrantees.
While PCCD separately accounted for these grant funds, they did not require
subgrantees to submit supporting documentation to verify claims of
achievement or in conjunction with requests for reimbursement. Because of
this, we could not perform transaction testing due to a lack of support,
determine whether costs charged to the grant were allowable, or verify
PCCD’s claims of achievement.

      Additionally, prior to administering the Victim Assistance grant, PCCD
did not evaluate the subgrantees’ financial management systems nor did
they evaluate the subgrantees’ internal processes and procedures for
administering the award and adhering to the terms and conditions of the
grant. PCCD also did not identify the subgrantees’ key internal controls or
assess their effectiveness. According to PCCD’s fiscal monitoring form, the
subgrantee is responsible for establishing and maintaining an adequate
system of accounting and internal controls for itself. We believe that
because PCCD relies on the self-monitoring of subgrantees, these issues can
lead to internal shortcomings specific to the Victim Assistance grant and
increase the potential for fraud, waste, and abuse of grant funds, as well as
the spending of funds on unauthorized and unallowable purposes.

Expenditures

      According to the OJP Financial Guide, a grantee is responsible for
establishing and maintaining an adequate financial system and accounting


                                    -8-
records to accurately account for funds awarded. To determine whether
expenditures made by PCCD using grant funds were allowable and
adequately supported, we reviewed supporting documentation for those
transactions we tested for the Victim Compensation grant program. Because
PCCD did not require subgrantees to submit any supporting documentation,
nor was any supporting documentation available as a result of PCCD
monitoring activities, we could not perform transaction testing for the Victim
Assistance grant.

Victim Compensation Grant

      For the Victim Compensation grant, we found that PCCD used grant
funds to pay the claims of victims of crime for losses, such as funeral, loss of
support, loss of earnings, counseling, relocation, hospital and other medical
providers, and claimants. As of June 30, 2010, PCCD had incurred
expenditures and made drawdowns totaling $1,461,318, or 95 percent of the
$1,536,233 of the original grant award. PCCD planned to use the remaining
funds as part of a public awareness campaign to increase the visibility of the
Victim Compensation Program for crime victims in hospital emergency
rooms.

      Expenditures associated with this grant were used to pay for all victim
compensation claims from July 1, 2009, to August 25, 2009. During this
period, PCCD provided $1,459,423 in payments to claimants and providers.
To determine whether these expenditures were allowable, according to the
terms of the grant, supported with proper documentation, and reasonable,
we tested the compensation program’s transactions.

      For expenditure testing purposes, we judgmentally selected a sample
of 55 transactions representing 694 claim numbers that totaled $1,068,267
in grant funding. We reviewed files associated with each of these claims in
order to determine whether payments were allowable and supported. As
part of our testing, we reviewed supporting documents PCCD used to
determine the victim’s eligibility and payment amount. These supporting
documents included, but were not limited to, police reports, invoices from
providers, and claimant information documents. In all of the 55 transactions
we reviewed, we found no evidence of expenditures being unallowable or
unsupported.

      According to VOCA Crime Victim Compensation Program guidelines,
grantees may retain up to 5 percent of each year’s grant for administrative
costs to expand, enhance, or improve the state's previous level of effort in
administering the VOCA grant program at the state level and to support


                                     -9-
activities and costs that impact the delivery and quality of services to crime
victims throughout the state. Further, the grantee is required to submit a
statement to OVC which reports the amount of the total grant award that
will be allocated to administrative costs.

      PCCD stated on their quarterly Recovery Act reports that they will use
5 percent, or $76,812, of the grant award as part of a public awareness
campaign to increase visibility of the program for crime victims in hospital
emergency rooms. As of June 30, 2010, PCCD spent $1,896 on a Victim
Compensation program logo design and card designs. PCCD planned to
spend the remaining funds on printing cards and posters, and purchasing
card holders for about 300 emergency room waiting areas in Pennsylvania.
We determined that these expenses were allowable according to the
guidelines, as these items should increase the visibility of the Victim
Compensation program. We also determined that PCCD appropriately
submitted the required statement in the quarterly reports.

Victim Assistance Grant

      As of June 30, 2010, PCCD had incurred expenditures and made
funding requests (drawdowns) totaling $530,689, or 40 percent of the
original grant award of $1,323,000. PCCD used these funds to provide
direct services to crime victims through four subgrantees in support of the
Recovery Act objectives of preserving and creating jobs and promoting
economic recovery. The subgrantees were to provide essential services to
crime victims and, according to a PCCD grant official, the funding for the
subgrantees to provide these services has resulted in retained positions
commensurate with meeting the goals of the Recovery Act funding.

      To support the expenditures made through this grant, which were
made up of payments to the four subgrantees, PCCD required subgrantees
to submit quarterly fiscal and performance reports in order for them to
receive their reimbursements.3 The information from the quarterly reports




       3
         In addition to normal reporting requirements, grantees receiving Recovery Act
funding must submit quarterly reports, which require both financial and programmatic data.
Reports are due within 10 calendar days after the end of each quarter, beginning with the July
to September 2009 reporting period.



                                           - 10 -
was then used to report information for annual and Recovery Act reports to
OVC.4 During our audit, we found that PCCD did not require any supporting
documentation to be submitted by the subgrantees with quarterly fiscal
reports. According to a PCCD grant official, subgrantees were expected to
maintain the records and documentation to substantiate all subgrantee
expenditures, but not required to submit any of that documentation to PCCD
in support of reimbursement requests. As a result, we could not determine
what grant-funded services were provided by the subgrantees, and in
particular, whether the charges were allowable or adequately supported.

       Because PCCD did not obtain and maintain any supporting
documentation from their subgrantees, we question $530,689 in
unsupported expenditures. In our view, when expenditures are unsupported
it greatly increases the risk of unallowable and inappropriate charges to the
grant.

Monitoring of Subgrantees

      According to the OJP Financial Guide, as the direct grant recipient,
PCCD was responsible for all aspects of the grant-funded program, including
proper accounting and financial recordkeeping of all subgrantee grant-
funded expenditures. Moreover, PCCD was required to ensure that
subgrantees had a system of internal controls in place to safeguard and
account for the grant funds. PCCD was also required to provide adequate
monitoring to ensure that subgrantees used the grant funds for their
intended grant-authorized purpose. PCCD agreed to monitor its subawards
under the Recovery Act in accordance with applicable statutes, regulations,
OMB circulars, and guidelines, including the OJP Financial Guide, and to pass
through the applicable award conditions in any subawards. PCCD was
responsible for oversight of subgrantee spending and monitoring of specific
outcomes and benefits attributable to the use of Recovery Act funds by its
subgrantee. In addition, PCCD agreed to submit, upon request,
documentation of its policies and procedures for monitoring of subawards
under the Recovery Act.



       4
          For the annual report, the recipient agrees to provide information on the activities
supported and an assessment of the effects that the Recovery Act victim assistance funds
have had on services to crime victims within the State for a one year period (October 1
through September 30 – the federal fiscal year). This information will be submitted
annually on the Victims of Crime Act Victim Assistance Grant Program State Performance
Report, in accordance with the instructions developed by OVC. The information will be
submitted no later than December 30 of each year.



                                            - 11 -
      After administering the grant award, PCCD grant officials monitored
the four subgrantees through the review of quarterly fiscal and program
reports submitted by the subgrantees and through telephone conferences
and site visits. According to a PCCD grant official, PCCD conducted
telephone conferences with each subgrantee after the subgrantee agreed to
the terms of the award. Within the first 12 months of the project start date,
PCCD performed an on-site monitoring visit at each of the four subgrantees.
A second telephone conference was to be made towards the end of the
contract date for all subgrantees.

      PCCD required subgrantees to submit fiscal and program reports on a
quarterly basis through PCCD’s electronic grants management system. The
information from the fiscal and program reports was then used to report
information for the annual performance report and the quarterly Recovery
Act reports submitted to OVC. PCCD’s quarterly fiscal reports included
subgrantee budget information, total funds received to date, expenditures to
date, unpaid obligations, and unexpended cash. PCCD’s quarterly
performance reports included the specific Recovery Act performance
measures (jobs retained), a description of victims served, and services
provided by the subgrantee.

      According to a grant official, PCCD did not check or verify the
information that subgrantees submitted for either the fiscal or program
reports. Because PCCD did not require the subgrantees to submit any
supporting documentation for fiscal or program reports, PCCD could not
provide us with documentation that supported the data reported by the four
subgrantees within their reports. A PCCD official said that subgrantees were
expected to maintain records and documentation to substantiate all
expenditures made using grant funds, but not required to submit any of that
documentation to PCCD.

       While PCCD had taken steps to monitor subgrantees through on-site
visits, telephone conferences, and quarterly reports, they did not require
subgrantees to submit any supporting documentation, nor was any
supporting documentation available as a result of PCCD monitoring activities.
Because this information was not required or obtained, PCCD could not
provide specific information or verify the details on what services the
subgrantees provided to crime victims. Therefore, we could not verify the
claims of achievement in the reports provided by PCCD to OJP, such as jobs
retained or fiscal information.

     This lack of monitoring places federal grant award funds at risk and
undermines the ability of OVC to adequately administer and manage the


                                   - 12 -
award, as well as ensure that federal funds are being adequately
safeguarded and spent accurately and properly in accordance with the grant
objectives. In our opinion, when subgrantees are not being sufficiently
monitored, it is not possible to determine if the stated objectives of the
grant are being met.

      Additionally, as these funds are a part of the Recovery Act, we could
not confirm that the funding was achieving any of the results being reported
by PCCD.

Drawdowns

      The OJP Financial Guide establishes the methods by which the
Department of Justice makes payments to grantees. The methods and
procedures for payment are designed to minimize the time elapsed between
the transfer of funds by the government and the disbursement of funds by
the grantee.

      To determine if drawdowns were completed in advance or on a
reimbursement basis, after funds were spent, we interviewed grant officials
and analyzed supporting documentation for the actual expenditures. To
determine if funds were requested based on actual expenditures, we
calculated the difference between the grant funds requested and received to
the actual reported expenditures.

Victim Compensation Grant

      PCCD requested 95 percent of grant funds through three drawdowns,
or funding requests, totaling $1,461,318 as of June 30, 2010. According to
a PCCD official, the remainder of the grant was to be spent on a public
awareness campaign which would take place by the end of December 2010.
Additionally, PCCD was awarded the funds in April 2009, but did not draw
funds until September 2009.

      We determined that grant funds were requested on a reimbursement
basis. In addition, we determined that drawdowns were requested based on
actual expenditures and did not exceed grant expenditures. As a result, we
found that PCCD’s drawdown procedures were adequate for this grant.

Victim Assistance Grant

      PCCD requested 40 percent of grant funds through 12 drawdowns, or
funding requests, totaling $530,689 as of June 30, 2010. PCCD awarded the


                                   - 13 -
subgrantee contracts on June 9, 2009, but did not draw funds until
September 2009, and the subgrantees’ contract periods were from
July 1, 2009 to June 30, 2011, or 24 months.

      According to a PCCD official, PCCD reimbursed the subgrantees based
on 1/24th of their contracted amount on a monthly basis, or in other words,
provided funding as a fixed monthly reimbursement for the award period
rather than rely on requests from the subgrantee that included supporting
documentation for actual expenditures. According to PCCD officials, this was
because the subgrantees (typically non-profit organizations) often had cash
flow problems and relied on PCCD reimbursements to help sustain their
operations. As a result, PCCD did not make funding requests to OVC based
on actual expenses.

      When payments are not made based on actual expenditures, it places
federal grant award funds at risk and undermines the ability of OVC to
adequately administer and manage the award, as well as ensure that federal
funds are being adequately safeguarded and spent accurately and
properly in accordance with the grant objectives.

Reporting

Federal Financial Reports for the Victim Compensation Grant

      The financial aspects of OJP grants are monitored through Federal
Financial Reports (FFRs).5 According to the OJP Financial Guide, FFRs should
be submitted within 30 days of the end of the most recent quarterly
reporting period. Even for periods when there were no program outlays, a
report to that effect must be submitted. Funds or future awards may be
withheld if reports are not submitted or are excessively late.

       Between January 2009 and June 2010, PCCD was required to submit a
total of six FFRs for the Victim Compensation grant, and we found that PCCD
submitted all of the required FFRs. We reviewed the submitted FFRs for
both accuracy and timeliness.   After conducting an analysis of the FFRs and
the grantee's accounting records, we concluded that the accounting records
accurately supported the FFRs that were provided. We also found that one
of the six FFRs was submitted 6 days late. However, because only one

       5
          Effective for the quarter beginning October 1, 2009, grant recipients must report
expenditures online using the Federal Financial Report (FFR-425) Form no later than 30
days after the end of each calendar quarter. The final report must be submitted no later
than 90 days following the end of the grant period. These reports are no longer called
Financial Status Reports.

                                           - 14 -
report was late and the length of time was insignificant, the effect on OVC’s
ability to monitor the grant was, in our view, immaterial.

Federal Financial Reports for the Victim Assistance Grant

       Between January 2009 and June 2010, PCCD was required to submit a
total of six FFRs for the grant, and we found that PCCD submitted all of the
required FFRs. We reviewed the submitted FFRs for both accuracy and
timeliness.   After conducting an analysis of the FFRs and the grantee's
accounting records, we concluded that even though PCCD did not track
expenditures by line item for its subgrantees, the accounting records they
provided accurately supported the FFRs that were provided for the Victim
Assistance grant. We also found that one of the six FFRs was submitted
6 days late. However, similar to the Victim Compensation grant, because
only one report was late and the length of time was insignificant, the effect
on OVC’s ability to monitor the grant was, in our view, immaterial.

Annual Performance Report for the Victim Compensation Grant

      Annual progress reports are submitted in order to present information
on the performance of a grant. According to the special conditions set forth
in the grant award documentation, the recipient agrees to complete and
submit a Victims of Crime Act Victim Compensation Grant Program State
Performance Report (compensation performance report) in accordance with
the instructions developed by OVC. The reports are to be submitted no later
than December 30 of each year.

      We reviewed the compensation performance report submitted by PCCD
for both accuracy and timeliness. The report consisted of four sections:
(1) background information; (2) total number of claims during the reporting
period by age group, eligibility status, and how the claim was processed;
(3) details of the type of crime, the number of claims processed for that
specific crime, and the total amount paid; and (4) the total expenses paid by
services.

      For the period we reviewed, PCCD was required to submit one
performance report that was due by December 30, 2009. We found that
PCCD submitted this report timely; however, we also found that some of the
report’s information was inaccurate. According to the OJP Financial Guide, a
funding recipient agrees to collect data appropriate for facilitating reporting
requirements and ensure that valid and auditable source documentation is
available to support all data collected for each performance measure
specified in the program solicitation. Based on our review of the information


                                    - 15 -
supporting the compensation performance report, we determined that there
were a total of 1,172 unique claim numbers and 1,822 transactions
processed by PCCD from July 1, 2009, to August 25, 2009. Through PCCD’s
claims processing software, the Victim Compensation grant funds were
expended between July 1, 2009, and August 5, 2009. However, we found
that the results of the compensation performance report did not match the
results of the transaction data.

      Specifically, we found that in calculating the statistics for the
performance report, the data PCCD used only reflected the claims processed
from July 1, 2009, to August 5, 2009. Because PCCD relied on data that the
claims processing software generated without comparing and verifying
the expenditures to the statistical data, the results reported in the
compensation performance report were inaccurate.

      During our audit, PCCD acknowledged there was a discrepancy
between the performance reporting and the actual transaction data. PCCD
had also notified OVC that there was an error in the report and were working
to submit a revised report. In the future, PCCD plans to flag payments
assigned to each federal award, which PCCD believed would make tracking
expenditures faster, easier, and more accurate.

Annual Performance Report for the Victim Assistance Grant

      We reviewed the submitted Victims of Crime Act Victim Assistance
Grant Program State Performance report (assistance performance report) for
both accuracy and timeliness. This report consisted of four sections:
(1) background information; (2) total number of claims during the reporting
period by age group, eligibility status, and how the claim was processed;
(3) details of the type of crime, the number of claims processed for that
specific crime, and the total amount paid; and (4) the total expenses paid by
services.

      PCCD was required to submit one assistance performance report
during the period of our review that was due on December 30, 2009, and we
found that PCCD submitted this report timely. Because PCCD did not require
its subgrantees to submit supporting documentation, we could not verify the
accuracy of this annual performance report.

       According to PCCD grant officials, their electronic grants management
system was designed to capture performance data, which includes jobs
retained and fiscal information, through the submission of performance and
fiscal reports by PCCD’s subgrantees. However, because this was the only


                                   - 16 -
documentation PCCD maintained for the performance of the assistance grant
and no supporting documentation was obtained, we could not verify the
accuracy of this assistance performance report.

       As discussed earlier, PCCD lacks an effective means for monitoring
subgrantee performance because they depend on subgrantees entering
accurate information into PCCD’s grants management system and do not
collect supporting documentation to verify claims of achievement. When
supporting documentation is not obtained and verified, it is not possible to
determine if the stated performance objectives of the grant are being met.

Recovery Act Reports for the Victim Compensation Grant

       In addition to the normal reporting requirements, grantees receiving
Recovery Act funding must submit quarterly reports which require both
financial and programmatic data. Reports are due within 10 calendar days
after the end of each calendar quarter, beginning with the July to
September 2009 reporting period. As of October 10, 2009, these reports
must also include the cumulative activities and projects funded since the
enactment of the Recovery Act on February 17, 2009. Recipients that
received recovery funds from a federal agency are required to submit these
reports to that agency, which should contain the following information:

   	 the total amount of recovery funds received from that agency;

   	 the amount of recovery funds received that were expended or 

      obligated to projects or activities; and 


   	 a detailed list of all projects or activities for which recovery funds were
      expended or obligated, including: the name of the project or activity, a
      description of the project or activity, an evaluation of the completion
      status of the project or activity, an estimate of the number of jobs
      created and the number of jobs retained by the project or activity, and
      detailed information on any subcontracts or subgrants awarded by the
      recipient.

      We reviewed the submitted Recovery Act Reports for both accuracy
and timeliness.  Between January 2009 and June 2010, PCCD was required to
submit a total of four Recovery Act Reports, and we found that PCCD
submitted all four required Recovery Act Reports on time. After conducting
an analysis of the Recovery Act Reports and the grantee's accounting
records, we concluded that the accounting records accurately supported the
Recovery Act Reports that were provided to OJP.


                                     - 17 -
Recovery Act Reports for the Victim Assistance Grant

        We reviewed the submitted Recovery Act Reports for both accuracy
and timeliness.  Between January 2009 and June 2010, PCCD was required to
submit a total of four Recovery Act Reports and we found that PCCD
submitted all four required Recovery Act Reports on time.  PCCD was
required to report the total amount of recovery funds received, the amount
of recovery funds that were expended or obligated to this project, a detailed
list of all projects for which recovery funds were expended or obligated, and
detailed information on any subgrantees.

      After conducting an analysis of the Recovery Act Reports and the
grantee's accounting records, we determined that the summary accounting
records matched the amount reported as expended for the period on the
Recovery Act Reports that were provided to OJP. While PCCD reported on all
of the required information for the four quarters, we could not verify the
number of jobs retained for each quarter because PCCD did not maintain
supporting documentation. 

Program Performance

Victim Compensation Grant

      The objective of this grant was to provide funds from the Recovery Act
to enhance state victim compensation payments to eligible crime victims in
Pennsylvania. In addition, the Victim Compensation grant provided financial
assistance to federal and state victims of crime. As stated above,
95 percent of these funds were used to reimburse crime victims for
expenses related to the crime incident. PCCD planned to spend the
remaining 5 percent on outreach initiatives for the Victim Compensation
Program in hospital emergency room waiting areas.

      Under the VOCA, state programs are required to offer compensation to
victims and survivors for the following four categories of expenses: medical
expenses, mental health counseling and care, loss of wages, and funeral
expenses. Other expenses may be authorized by state statute, rule, or
other established policy.

      Medical expenses can include crime incident-related hospital visits;
doctor, dentist, ambulance, or physical therapy bills; medications; medical
supplies; and medical equipment. Health counseling and care may include
counseling/therapy bills for the victim, along with certain family members


                                   - 18 -
related to the victim. Loss of wages may include receiving reimbursement if
the victim is unable to work because of crime injuries. In homicide cases,
any person who assumes the obligation or who pays for the funeral or burial
expenses is eligible to file a claim for reimbursement of those costs. Other
expenses may include loss of support, which a victim’s family could receive if
the person who financially supported them or their family was murdered. If
a victim of crime needs to immediately relocate for safety or health reasons,
some moving costs may be reimbursed. Finally, a victim may also be
reimbursed for the costs related to the reasonable and necessary costs of
cleaning the crime scene of a private residence.

Measuring Performance

      PCCD measured the effectiveness of the Victim Compensation grant
through the number of victims served. According to a grant official, PCCD
was successful in assisting 1,168 crime victims with $1,459,421 in Recovery
Act funds. However, we were unable to verify this information because of
the inconsistencies between the accounting records and the performance
data records previously mentioned.

      In addition, PCCD used economic growth measures to measure its
performance. These economic growth measures included amounts paid for
funerals, loss of earnings, hospitals, providers, and claimants. While we
could not verify the performance data due to inconsistencies between the
accounting and performance records, in our opinion, PCCD was actively
providing funds to crime victims based on the information we reviewed
during transaction testing.

Program Sustainability

      In addition to receiving this grant, the Victims Compensation Program
continues to sustain itself through the following funding sources;

   	   Adult/Juvenile Penalty Assessment: Imposed upon a criminal 

        defendant or juvenile (either convicted, placed in a diversionary 

        program, a consent decree or an adjudication). 


   	   Restitution: A court-ordered payment from a defendant to the victim
        for injuries or losses as a result of a crime. If the compensation
        program has made an award to a victim, restitution payments must be
        paid directly to the compensation fund.




                                      - 19 -
  	   Unclaimed Restitution: Court-ordered restitution that the offender has
       paid but the victim has not claimed is deposited by counties into the
       state general fund. These funds are then deposited by the state
       treasurer into the compensation fund, on or before June 30 of each
       year.

  	   Reimbursements: Any money returned to the program.

  	   Subrogation: An amount reimbursed to the compensation program
       when a crime victim receives an award through litigation or an
       insurance settlement or reimbursement. The compensation fund is
       entitled to this money by law, when an award has previously been
       made.

  	   Donations: Received for the fund.

      As stated above, the objective of the grant was to provide funds from
the Recovery Act to enhance state victim compensation payments to eligible
crime victims and provide financial assistance to victims of crime. Based on
our review of PCCD records, we determined that PCCD met their goals and
objectives. PCCD served 1,172 victims of crime and planned to increase
awareness of the program by conducting a public awareness campaign about
the Victim Compensation program.

Victim Assistance Grant

      The objective of the grant was to provide funds from the Recovery Act
to enhance crime victim services in Pennsylvania by competitively awarding
funds to local community-based organizations that provide direct services to
crime victims.

      As stated above, 40 percent of the total grant award, totaling
$1,323,000, had been used to reimburse subgrantees. These funds were
used to provide direct services to crime victims in support of the Recovery
Act objectives of preserving and creating jobs and promoting economic
recovery through four subgrantees that were to provide essential services to
crime victims. According to a PCCD grant official, the funding for the
subgrantees to provide these services has resulted in retained positions.
Because PCCD did not verify supporting documentation provided by the
subgrantees, we could not determine if PCCD (through its subgrantees) has
retained actual positions.




                                    - 20 -
       OVC awarded each eligible state assistance program a Recovery Act –
VOCA victim assistance formula grant to support the provision of services to
victims of crime throughout the nation. Services under this grant program
were defined as those efforts that respond to the emotional and physical
needs of crime victims; assist primary and secondary victims of crime to
stabilize their lives after victimization; assist victims to understand and
participate in the criminal justice system; and provide victims of crime with
a measure of safety and security.

Measuring Performance

     PCCD measured the effectiveness of the Victims Assistance Program
through the following funding guidelines:

   	   Number of jobs retained due to Recovery Act funding;

   	   Number of jobs created due to Recovery Act funding;

   	   Number of programs with uninterrupted service to victims as a result
        of Recovery Act funding;

   	   Number of programs that were reinstated to provide services to 

        victims as a result of Recovery Act funding; 


   	   Number of new partnerships established as a result of Recovery Act
        funding; and

   	   Number of partnerships continued as a result of Recovery Act funding.

      As stated above, PCCD’s subgrantees provide performance data in
quarterly program reports through PCCD’s electronic grants management
system. According to a PCCD official, PCCD measures the progress toward
achieving performance objectives through reviews of each subgrantee’s
quarterly performance report to see if a subgrantee is on track for meeting
targets established in their respective grant applications.

      According to the OJP Financial Guide, PCCD is required to retain
supporting documents, statistical records, and all other records pertinent to
the award. However, PCCD did not verify the information submitted by the
subgrantees or require the subgrantees to submit supporting documentation
because their grants management system was created to store important
data, such as performance accomplishments. In our judgment, when
subgrantees are not monitored for accuracy in reporting, it is not possible to


                                     - 21 -
determine if the stated performance objectives of the grant were met. PCCD
should collect and review supporting documentation to ensure performance
measures are being met.

Verification of Jobs Retained for the Victim Assistance Grant

      In developing the Victim Assistance Program, PCCD required each
subgrantee to include personnel expenditures in the budgets they submitted
to PCCD. Each subgrantee included a target number of jobs that would be
retained through the use of grant funds. According to the subgrantees’
submissions, there were 43 planned jobs that would be retained using the
grant funding. According to the reports submitted by the subgrantees to
PCCD, 59 positions were being retained by the subgrantees. Because PCCD
did not require and maintain supporting documentation, we could not
determine if the subgrantees, through PCCD, were meeting their stated
targets for job retention.

      According to a PCCD official, PCCD was serving the population by
providing services to victims of crime and was also retaining jobs. However,
because PCCD did not maintain supporting documentation, we could not
verify that jobs were actually retained or victims of crime were actually
being served as a result of the grant funds PCCD received.

Program Sustainability

      According to a PCCD official, PCCD plans to sustain the Victim
Assistance Program after the expiration of this grant. PCCD hopes to
continue to receive VOCA grant funding and continue to serve victims of
crime in Pennsylvania.

Compliance with Other Grant Requirements

Victim Compensation Grant

     In addition to the general grant requirements, we tested for
compliance with terms and conditions specified in the grant award
documents. The original grant award contained 31 special conditions. PCCD
complied with all of the special conditions contained in the Victim
Compensation grant.




                                    - 22 -
Victim Assistance Grant

      In addition to the general grant requirements, we tested for
compliance with terms and conditions specified in the grant award
documents. The original grant award contained 29 special conditions. PCCD
complied with 27 of the special conditions contained in the grant. PCCD did
not maintain timesheets to document hours worked for activities related to
this grant for subgrantee personnel and did not sufficiently monitor
subgrantees.

      According to a PCCD grant official, the goal of this grant was to
provide direct services to crime victims in support of the Recovery Act
objectives, and specifically to preserve and create jobs and promote
economic recovery. We found that PCCD did not require the subgrantees to
submit supporting documentation, as discussed earlier. Additionally, PCCD
did not maintain the timesheets for all staff funded using grant funds, which
was one of the special conditions of the grant. As a result, we could not
determine if the subgrantees were meeting the stated goals of the grant
program.

Conclusions

       PCCD did not fully comply with the grant requirements we tested. We
found weaknesses in PCCD’s expenditures and monitoring of subgrantees
resulting in $530,689 in questioned costs, as the expenditures were not
adequately supported.

      We also identified several areas where management improvements
were warranted, including implementing changes to the reimbursement
process for subgrantees, the evaluation of subgrantee processes and
procedures, and implementation of procedures ensuring the accurate
submission of progress reports. We also determined that while it appears
that PCCD is on track to meet the goals and objectives of the grants, it could
enhance program performance by ensuring that the data used for
performance reporting is reviewed and verified.

Recommendations

     We recommend that OVC:

     1. Ensure PCCD has a process in place to reimburse subgrantees based
        on actual expenditures.



                                    - 23 -
2. Remedy $530,689 in unsupported expenditures to subgrantees for
   the Victim Assistance grant.

3. Ensure PCCD adequately monitors and verifies subgrantee fiscal and
   performance information.

4. Ensure PCCD evaluates subgrantee processes and procedures for
   administering and adhering to the terms and conditions of the
   Victim Assistance grant.

5. Ensure PCCD has implemented and adheres to procedures that will
   result in the accurate submission of performance reports.

6. Ensure PCCD has a process in place to adhere to the terms and
   conditions of the Victims Assistance grant with regard to maintaining
   timesheets.




                              - 24 -
                                                                APPENDIX I 



               OBJECTIVES, SCOPE, AND METHODOLOGY

       The purpose of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms
and conditions of the grants. We also assessed grantee program
performance in meeting grant objectives and overall accomplishments.
The objective of our audit was to review activities in the following areas:
(1) internal control environment, (2) grant expenditures, (3) monitoring
of subgrantees, (4) drawdowns, (5) reporting, (6) program performance
and accomplishments, and (7) compliance with other grant requirements.
We determined that budget management and control, program income,
accountable property, matching costs, indirect costs, and the monitoring
of contractors were not applicable to these grants.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

       In conducting our audit, we performed sample testing in grant
expenditures. In this effort, we employed a statistical sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such as
high dollar amounts. Although this sample takes into account some level of
detail, the sample is classified as judgmental. After stratifying the claims,
consolidating the transactions, and eliminating multiple charges and multiple
transactions from the same vendor, the testing sample was summarized
creating a universe as a whole. We identified samples of 55 grant
expenditures. This statistical sample design does not allow for the projection
of the test results to the universes from which the samples were selected.

      We audited the Office for Victims of Crime grant numbers
2009-SF-B9-0090 and 2009-SG-B9-0117. The grantee had a total of
$1,461,318 in requests for grant funding through June 2010 for grant
number 2009-SF-B9-0090, the Victim Compensation Grant, and $530,689
in requests for grant funding through June 2010 for grant number
2009-SG-B9-0117, the Victim Assistance Grant. Our audit concentrated
on, but was not limited to, the award of the original grants in March 2009
through June 2010.



                                    - 25 -
      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide and grant award documents.

      In addition, we reviewed the timeliness and accuracy of Federal
Financial Reports, Performance Reports and Recovery Act Reports, evaluated
actual program performance to grant objectives, and considered internal
control issues. However, we did not test the reliability of the financial
management system as a whole.




                                   - 26 -
                                                                        APPENDIX II 



                SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:                                              AMOUNT               PAGE

Unsupported Expenditures                                          $ 530,689           11


TOTAL OF QUESTIONED COSTS:                                        $530,689



TOTAL DOLLAR-RELATED FINDINGS:                                    $530,689




Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




                                         - 27 -
                                                                                APPENDIX III 



PENNSYLVANIA COMMISSION ON CRIME AND DELINQUENCY 

       RESPONSE TO THE DRAFT AUDIT REPORT 



                                  Commonwea lth of

                                                               ...
                                                          Penns~'lva ni a




                                          ~ '~
                                                    ~~'
                                                .    ~ ...,~   tY

                                          .·.:,~i~:
                                            t " < - ';1?'f ~: .. 1 '
               PENNSYLVAN IA COM M ISSION ON C RI ME AN D DELI NQUENCY


                                          March 11, 2011




   U. S. Department of Justice
   Office of the Inspector General
   Attn: Thomas O. Puerzer
   Philadelphia Regional Audit Office
   701 Market Street, Suite 201
   Philadelphia, pennsylvania 19106


         RBSPONSB TO DRAFT AUDIT RBPORT OF THB OFFICB OF JUSTICB PROGRAMS
         OPPICB OP VICTIMS OF CRIME GRANTS AWARDBD TO THE PENNSYLVANIA
         COMMI SSON ON CRIME AND DBLINQUENCY


   Dear Mr. Puerzer:

   Thank you for the opportunity to review and comment on the recommendations
   included in the draft audit reported provided by the Department of Justice,
   Office of Inspector General. The Pennsylvania Commission on Crime a n d
   Delinquency (PCCD) has carefully considered the recommendations and is
   respectfully submitting our official response.

   Re c ommenda ti o n No . 1: OVC sho uld e nsure that PCeD has a pro cess in place to
   r e imburs e subgrantees b a sed o n a c tual expenditure s .

   The Pennsylvania Commission on Crime and Delinquency does not entirely concur
   with this recommendation.

   peCD concurs that as a general ru l e reimbursement of actual subgrantee
   expenditures is preferable and we have revised payment procedures to reflect
   such, however, we believe that exceptions to this procedure should be
   allowable as there are times when agencies require advance payment due to
   the subgrantee lacking sufficient operating capital.    In those situations
   where advance payments are made, it would be the result of the subgrantee
   demonstrating they lack sufficient working capital and that they have
   procedures in place to avoid having excess cash - an-hand.




                             P.O. Box 11 67. H a r r isb u rg. PA 17 108-1167
                                     Toll- Free: (800) 692-7292
                                  Web Site: www.pccd .sta te.pa.us




                                               - 28 -
Mr. Thomas O. Puerzer                      2                          March II , 2011



As indicated in the draft audit report, PCCD u tilizes an electronic grants
management system that requires expenditure da t a (cash expenditures and
accruals) to be submitted no less frequently than quarterly.    Subgrantees
have been notified that in the event of them requiring more frequent payment ,
they may submit interim expenditure reports as frequently as once a month.
In o rder for payment t o be made on an accrued expenditure, PCCD will require
that the grantee has in place procedures to avoid hav ing excess cash-on -h and.
PCCD will develop standards as to what will be considered sufficient
demonstration of lack of operating capital as well as what procedures will be
would be acceptable to PCCD to ensure that subgrantees do not maintain excess
cash-on-hand.


Re commendatio n No . 2 : OVC should ensure that the PCeD ramedi es the $ 5 30,6 89
in u n supported expenditures to subgrantees for the Vi c tim Ass i sta nc e gra nt .

The pennsylvania Commission on Crime and Delinqu ency con curs with this
recommendation.

The draft audit report states that "peeD did not require supporting
documentation to be submitted by the subgrantees with quarterly fiscal
reports". The interpretation of the OJP Financial Guide by PCCD reflects
that the responsib ilit y for retention of all subgrant related financial
records, supporting documents, statistical records. and all other records
pertinent to the award sha l l remain with the subgrantee organization . In the
PCCD Standard Subgrant Conditions that are incorporated into every subgrant
award it is stated "PCCD, in its specifically stated sole discretion, may
undertake an inspection and/or audit of the financia l records of Applicant
relating to the Subgrant Project. Applicant s h all provide PceD with fu l l and
complete access to all records relating to the performance of the Subgrant
Project and to all persons who were i nvolved in the Subgrant Project" .

As an alternative to maintaining all supporting documentation on site, PCCD
utilizes a sampling procedure which mandates that selected subgrantees,
selected both randomly and through a risk assessment process , provide all or
some of the supporting documentation that corresponds to their expenditure
reports. The supporting documentation will be reviewed for accuracy prior to
peeD issuing payment.

Upon receiving notice that the above stated expenditure would be questioned,
peeD requested the financial back - up from those subgrantees awarded these
funds and is currently in the process of reviewing and reconciling this
material. Based on the preliminary review of this material and the results
of the on-site monitoring that took place with each subgrantee, peeD is
confident that there is sufficient support for these expenditures.




                                       - 29 -
Mr. Thomas O. Puerzer                   3                        March 11, 2011



Recommendation No.3: ave should ensure that the PCCD a dequately monitors
and verifies subgrantee fiscal and performance information.

The Pennsylvania Commission on Crime and Delinquency concurs with this
recommendat ion.

PCCD will continue to enhance existing monitoring procedures to ensure that
supporting documentation is adequate and corresponds to f iscal and program
reports t ha t are submitted by subgran tees.

PCCD on-site monitoring procedures require that an assess ment be made of the
data that is submit ted to PCCD.  PCCD will re-enforce wit h program and fiscal
monitoring staff that supporting documentation must be reviewed, reconciled
and retaine d as part of this process.

As mentioned in response to recommendation No.2, PceD is utilizing a sampling
approach to test supporting fiscal documentation (i.e. payroll register,
payroll journal, timesheets, paid receipts and invoices ) . PceD will explore
the developme n t o f procedures to test supporting documentation for submitted
program reports.


Recommendation No.4 : Ensure peeD evaluates subgrantee processes and
procedures for administering and adhering to the terms and conditions of the
Victim Assistance grant.

The Pennsylvania Commission on Crime and Delinquency concurs with this
recommendation.

PCCD will assess our current pre-award subgrantee review process and make
changes as needed to ensu re that subgrantee systems support compliance with
the terms and conditions of the Victim Assistance Grant.


Recommendation No.5: Ensure peeD has implemented and a d heres to procedures
that will result in the accurate submission of performance reports.

The Pennsylvania Commission on Crime and Delinquency concurs with this
recommendation.

PCCD will develop written procedures to support the accuracy of submitted
performance reports.


Recommendation No.6:      Ensure PCCD has a process in place to adhere to the
terms and Conditions of the Victim Assistance grant with regard to
maintaining times h eets.

The Pennsylvania Commission on Crime and Delinquency concurs with this
recommendation.




                                    - 30 -
Mr. Thomas o. Puerzer                     4                     March 11, 2011



PCCD's interpretation of special condition No. 14 as it relates to timesheet
maintenance is that timesheets must be maintained by all personnel (including
subgrantee personnel) whose activities are charged to the grant but that
subgrantee personnel time sheets may be maintained by the subgrantee in so
much as they are available for review by PCCD or outside auditors upon
request. As stated in the responses to recommendations No.3 and No.4
related to the collection of supporting fiscal documentation, PCCD will use a
sampling approach to collect and review t ime sheets in support of this special
condit ion. PCCD will also review, reconcile and retain timesheets as part of
our on-site monitoring vi sits.


Again, thank you for the opportunity to review and comment on the draft audit
report. Should you have any questions related to our response please contact
me directly .

Sincerely,



:3;y:J<rector
Office of Financial Management and
 Administration



CC:   Ms. Linda J. Taylor, Lead Auditor
      Audit Coordination Branch
      Audit and Review Division

      Ms. Linda Rosenberg, Executive Director
      Pennsylvania Commiss ion on Crime and Delinquency




                                     - 31 -
                                                                             APPENDIX IV


                      OFFICE OF JUSTICE PROGRAMS
                  RESPONSE TO THE DRAFT AUDIT REPORT

                                                U.S. Department of Justice

                                                Office of Justice Programs

                                                Office of Audit, Assessment, and Management



                                               Washington, D.C. 20531


March 21, 2011

MEMORANDUM TO:              Thomas O. Puerzer
                            Regional Audit Manager
                            Office of the Inspector General
                            Philadelphia Regional Audit Office

                               /s/
FROM:                       Maureen A. Henneberg
                            Director

SUBJECT:                    Response to the Draft Audit Report, Office of Justice Programs,
                            Office for Victims of Crime Grants Awarded to the Pennsylvania
                            Commission on Crime and Delinquency, Harrisburg, Pennsylvania

This memorandum is in response to your correspondence, dated February 18, 2011, transmitting
the subject draft audit report for the Pennsylvania Commission on Crime and Delinquency
(PCCD). We consider the subject report resolved and request written acceptance of this action
from your office.

The report contains six recommendations and $530,689 in questioned costs. The following is the
Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For ease
of review, the recommendations are restated in bold and are followed by our response.

1. 	   We recommend that OJP ensure that PCCD has a process in place to reimburse
       subgrantees based on actual expenditures.

       We agree with the recommendation. We will coordinate with PCCD to obtain a copy of
       procedures developed and implemented to ensure that reimbursements to subgrantees are
       based on actual expenditures incurred under Federal grants.




                                           - 32 -
2. 	   We recommend that OJP remedy the $530,689 in unsupported expenditures to
       subgrantees for the Victim Assistance grant.

       We agree in part with the recommendation. While subrecipients are generally not
       required to submit source documents to grantees to support costs charged against OJP
       award funds, we agree that direct recipients should be vigilant in monitoring the use of all
       subaward funds (see Attachment - excerpt from OJP Financial Guide). Accordingly, we
       will coordinate with the PCCD to ensure that they have developed and implemented
       appropriate subgrantee monitoring procedures to cover the fiscal aspects of their
       subawards, as well as the performance aspects. Specifically, we will ensure that the
       PCCD’s revised subgrantee monitoring procedures include appropriate steps to monitor
       subaward funds during site visits, including: reconciling amounts reported on subgrantee
       fiscal cost reports with expenditures recorded in subgrantee accounting systems; ensuring
       compliance with Federal cash management regulations; and testing subgrantee
       expenditures to ensure that costs charged to Federal awards are properly supported,
       allowable, allocable, reasonable, and necessary.

       To remedy the $530,689 in unsupported expenditures charged to grant number
       2009-SG-B9-0117, we will request that PCCD provide accounting records and related
       documents to support the actual cumulative costs reported on their most recent Federal
       Financial Report (FFR). Specifically, we will request that PCCD provide copies of all
       subgrantee fiscal reports, which reflect the amounts expended (not drawn down) by each
       subgrantee, as well as any other records which support the cumulative expenditures
       incurred for this award. We will also request that PCCD adjust their most recent FFR for
       grant number 2009-SG-B9-0117 and return funds to DOJ, if necessary.

3. 	   We recommend that OJP ensure that PCCD adequately monitors and verifies
       subgrantee fiscal and performance information.

       We agree with the recommendation. We will coordinate with PCCD to obtain a copy of
       procedures implemented to strengthen controls over subgrantee monitoring to ensure that
       subgrantee fiscal and performance information is properly monitored and verified.

4. 	   We recommend that OJP ensure that PCCD evaluates subgrantee processes and
       procedures for administering and adhering to the terms and conditions of the
       Victim Assistance grant.

       We agree with the recommendation. We will coordinate with PCCD to obtain a copy of
       procedures developed and implemented to evaluate subgrantee processes and procedures
       for administering and adhering to the terms and conditions of the Victim Assistance
       grant.




                                             - 33 -
5. 	    We recommend that OJP ensure that PCCD has implemented and adheres to
        procedures that will result in the accurate submission of performance reports.

        We agree with the recommendation. We will coordinate with PCCD to obtain a copy of
        procedures developed and implemented to ensure that information included in
        performance reports is accurate.

6. 	    We recommend that OJP ensure that PCCD has a process in place to adhere to the
        terms and conditions of the Victims Assistance grant with regard to maintaining
        timesheets.

        We agree with the recommendation. We will coordinate with PCCD to obtain a copy of
        policies and procedures developed and implemented to ensure that timesheets for the
        Victims Assistance grant are adequately maintained; and adhere to the terms and
        conditions of the grant, and Federal grant guidelines.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

Attachment

cc: 	   Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Office of Audit, Assessment, and Management

        Joye E. Frost 

        Acting Director 

        Office for Victims of Crime 


        James Cantrall        

        Deputy Director 

        Office for Victims of Crime 


        Toni Thomas

        Associate Director        

        Office for Victims of Crime 


        Antwan Williams

        Audit Liaison        

        Office for Victims of Crime 


        Deserea Jackson 

        Program Manager          

        Office for Victims of Crime 



                                            - 34 -
cc:   OJP Executive Secretariat 

      Control Number 20110215





                                    - 35 -
                                                                APPENDIX V


 OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY OF
           ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the Pennsylvania
Commission on Crime and Delinquency (PCCD) and the Office of Justice
Programs (OJP). PCCD’s response is incorporated in Appendix III, and OJP’s
response is incorporated in Appendix IV of this final report. Because the
PCCD and OJP generally concurred with our recommendations and discussed
the specific actions that will be taken to address each of our findings, we
consider all of the recommendations resolved. The following provides the
OIG analysis of the responses and summary of actions necessary to close
the report.

Recommendation Number:

  1.	   Resolved. PCCD concurred in part with our recommendation to
        have a process in place to reimburse subgrantees based on actual
        expenditures. PCCD said in its response that, as a general rule,
        reimbursement of actual subgrantee expenditures is preferable and
        that it has revised procedures accordingly. However, PCCD also said
        it believes exceptions to this procedure should be allowable. PCCD
        acknowledged that some subgrantees require advance payment
        because they lack sufficient operating capital. According to PCCD, in
        those instances where advance payments are made, the subgrantee
        would have to demonstrate a lack of sufficient operating capital for
        payment to be made on accrued expenditures. Additionally, PCCD
        said that it will require that subgrantees have in place procedures to
        avoid having excess cash on hand. PCCD also commented that it will
        develop standards as to what will be considered sufficient
        demonstration of a lack of operating capital as well as what
        procedures will be acceptable to ensure that subgrantees do not
        maintain excess cash on hand. While the response from PCCD said it
        concurred in part with our recommendation, after reviewing the
        details of the response, we believe it is adequate to address our
        recommendation because the actions proposed will have the effect of
        strengthening internal controls associated with the subgrantee
        reimbursement process.

        In its response, OJP agreed with our recommendation and said that it
        will coordinate with PCCD to ensure it has a process in place to
        reimburse subgrantees based on actual expenditures. This
        recommendation can be closed when we receive evidence that PCCD
        has developed and implemented procedures to ensure that


                                    - 36 -
      reimbursements to subgrantees are based on actual expenditures
      incurred under federal grants.

2.	   Resolved. PCCD concurred with our recommendation to remedy
      $530,689 in unsupported expenditures to the Victim Assistance
      grant. PCCD said in its response that it will use a sampling
      procedure mandating that subgrantees, selected both randomly and
      through a risk assessment process, provide all or some of the
      supporting documentation that corresponds to their expenditure
      reports. According to PCCD, it is currently requesting supporting
      documentation from those subgrantees awarded funds that make up
      the $530,689 in questioned costs, and it will be reviewing and
      reconciling this documentation as received.

      The OJP response agreed in part with our recommendation that PCCD
      remedy $530,689 in unsupported expenditures to the Victim
      Assistance grant. OJP said that while subrecipients are generally not
      required to submit source documents to grantees to support costs
      charged to OJP awards, it agreed that direct recipients should be
      vigilant in monitoring the use of subaward funds according to the OJP
      Financial Guide. According to the OJP response, it will request that
      PCCD provide accounting records and related documents to support
      the actual cumulative costs reported on their most recent Federal
      Financial Report (FFR) for the Victim Assistance grant.    
       
      While OJP’s response agreed in part with our recommendation, after
      reviewing the details of the response, we believe it is adequate to
      address our recommendation because the actions proposed by OJP
      will strengthen internal controls and ensure that subgrantee
      expenditures charged to the Victim Assistance grant can be
      supported. Moreover, OJP’s response said that it will offer guidance
      to PCCD to assist in developing and implementing appropriate
      subgrantee monitoring procedures. This recommendation can be
      closed when we receive evidence that PCCD has completed this
      review for the expenditures in question and reconciled any
      differences with the subgrantees, as well as implemented necessary
      and appropriate procedures.

3.	   Resolved. PCCD concurred with our recommendation to adequately
      monitor and verify subgrantee fiscal and performance information.
      PCCD said it will continue to enhance existing monitoring procedures
      to ensure that supporting documentation is adequate and



                                  - 37 -
      corresponds to fiscal and program reports that are submitted by the
      subgrantees.

      The OJP agreed with our recommendation and said it will coordinate
      with PCCD in implementing subgrantee procedures to strengthen
      controls over subgrantee monitoring and ensure that subgrantee
      fiscal and performance information is properly monitored and
      verified. This recommendation can be closed when we receive
      evidence that PCCD has implemented procedures to strengthen
      controls over subgrantee monitoring that ensure subgrantee fiscal
      and performance information is properly monitored and verified.

4.	   Resolved. PCCD concurred with our recommendation to ensure that
      PCCD evaluates subgrantee processes and procedures for
      administering and adhering to the terms and conditions of the Victim
      Assistance grant. PCCD said it will assess its current pre-award
      subgrantee review process and make changes as needed to ensure
      that subgrantee systems support compliance with the terms and
      conditions of the Victim Assistance grant.

      The OJP agreed with our recommendation and said it will coordinate
      with PCCD in developing and implementing subgrantee processes and
      procedures for administering and adhering to the terms and
      conditions of the Victim Assistance grant. This recommendation can
      be closed when we receive evidence that PCCD has developed and
      implemented procedures to evaluate subgrantee processes and
      procedures for administering and adhering to the terms and
      conditions of the grant.

5.	   Resolved. PCCD concurred with our recommendation to implement
      and adhere to procedures that will result in the accurate submission
      of performance reports. PCCD said it will develop written procedures
      to support the accuracy of submitted performance reports.

      The OJP agreed with our recommendation and said it will coordinate
      with PCCD in developing and implementing procedures to ensure
      information included in the performance reports is accurate. This
      recommendation can be closed when we receive evidence that PCCD
      has developed and implemented procedures that will result in the
      accurate submission of performance reports.

6.	   Resolved. PCCD concurred with our recommendation to have a
      process in place to adhere to the terms and conditions of the Victim


                                  - 38 -
Assistance grant with regard to maintaining timesheets. PCCD said it
will use a sampling approach to collect and review timesheets in
support of special condition Number 14. PCCD also commented that
it will review, reconcile, and retain timesheets as part of its on-site
monitoring visits.

The OJP agreed with our recommendation and said it will coordinate
with PCCD in developing and implementing procedures to ensure that
timesheets for the Victims Assistance grant are adequately
maintained and adhere to the terms and conditions of the grant and
federal grant guidelines. This recommendation can be closed when
we receive evidence that PCCD has developed and implemented
policies and procedures to ensure that timesheets for the Victim
Assistance grant are adequately maintained, and adhere to the terms
and conditions of the grant and federal grant guidelines.




                            - 39 -
